BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Concerned
Citizens for Nuclear Safety, Inc., v. United States
Environmental Protection Agency; United States
Department of Energy; Triad National Security, LLC,
was sent via Next Day Service to the U.S. Supreme
Court, and via Next Day and e-mail service to the
following parties listed below, this 19th day of
November, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents EPA, et al.

Jim Payne
Renea Ryland
Environmental Protection Agency
Office of the Regional Counsel
1445 Ross Ave.
Dallas, TX 75202-2733
payne.james@epa.gov
ryland.renea@epa.gov
Counsel for Respondent EPA

j

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001
: www.beckergallagher.com

i

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Silas R. DeRoma
3745 West Jemez Road
Los Alamos, NM 87544
silas.deroma@nnsa.doe.gov
Counsel for Respondent DOE

James T. Banks
Hogan Lovells
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
james.banks@hoganlovells.com
Counsel for Respondent Triad National Security, LLC

Susan M. McMichael
P.O. Box 1663
Los Alamos, NM 87545
(505) 827-2990
smcmichael@lanl.gov
Counsel for Los Alamos National Laboratory

Lindsay A. Lovejoy, Jr.
Counsel of Record

Law Office of Lindsay A. Lovejoy, Jr.
3600 Cerrillos Road, Unit 1001A
Santa Fe, NM 87505
(505) 983-1800
lindsay@lindsaylovejoy.com
Richard H. Dolan
Of Counsel

Schlam Stone & Dolan LLP
26 Broadway
New York, NY 10004
(212) 344-5400
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 19, 2020.

Wo

Donna J.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/lvww� I q I J-aao

Notary P�: �

�

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

